No.

f

IN THE SUPREME COURT OF THE UNITED STATES

Jeremy Kerr - PETITIONER
vs
State of Ohio - RESPONDENT

PROOF OF SERVICE
I, Jeremy Kerr, do swear or declare that on this date,
,2020, as required by Supreme Court Rule 29,
I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to
the above proceeding or that party's counsel, and on every other
person required to be served, by depositing an envelope containg
the above documents in the US Mail properly addressed to each of
them and with first-class postage pre-paid, or by delivering to a
third-party commercial carrier for delivery within three calender
days.
The names and addresses of that served are as follows:

I declare under penalty of perjury that the foregoing is true
and correct.

Executed on

f
Jeremy Kerr‘S

